OFFICE OF AUDIT
REGION 9
LOS ANGELES, CA




               Office of Public and Indian Housing
                         Washington, DC

      HUD’s Veterans Affairs Supportive Housing
                     Program




2014-LA-0003                                     JUNE 18, 2014
                                                        Issue Date: June 18, 2014

                                                        Audit Report Number: 2014-LA-0003




TO:            Milan Ozdinec, Deputy Assistant Secretary for Public Housing and Voucher
               Programs, PE

               //SIGNED//
FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA


SUBJECT:       HUD Adequately Implemented and Monitored the HUD-VASH Program, but
               Changes Are Needed To Improve Lease Rates


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of HUD’s implementation and monitoring
of the Office of Public and Indian Housing’s Veterans Affairs Supportive Housing (VASH)
program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
213-534-2471.
                                         June 18, 2014
                                         HUD Adequately Implemented and Monitored the HUD-
                                         VASH Program, But Changes Are Needed To Improve
                                         Lease Rates



Highlights
Audit Report 2014-LA-0003


 What We Audited and Why                  What We Found

We reviewed the U.S. Department of       HUD adequately implemented and monitored its
Housing and Urban Development,           HUD-VASH program. However, the HUD-VASH
(HUD), Office of Public and Indian       vouchers were not fully used because of challenges in
Housing’s Veterans Affairs Supportive    getting veterans initially into housing and the
Housing (VASH) program regarding         significant turnover after lease-up. These challenges
HUD’s implementation and monitoring.     required a higher number of referrals from VA to use
We initiated our review because there    all available vouchers. The HUD-VASH program has
had been no prior Office of Inspector    yet to be used to its full capacity. In 2013, only 76
General reviews of the HUD-VASH          percent of vouchers were leased. In addition, the
program. Our objective was to            overall goal of the program is to serve all veterans and
determine whether HUD’s                  their families. Although focusing a high percentage on
implementation and monitoring of the     chronically homeless veterans was commendable, it
program was adequate.                    contributed to less veterans being housed, as it
                                         narrowed the pool of referral participants to those that
 What We Recommend                       tend to be more difficult to house. Other aspects of the
                                         program impacting its success included the lack of
                                         suitable housing and the lack of resources for move-in
We recommend that HUD’s Deputy           expenses.
Assistant Secretary for Public Housing
and Voucher Programs continue
working with the U.S. Department of
Veterans Affairs (VA) to increase
referrals to HUD’s VASH program,
collaborate with VA to reevaluate the
target percentage of chronically
homeless veterans so that a higher
number of homeless veterans can be
served, and continue efforts to find
consistent additional resources for
move-in costs.
                           TABLE OF CONTENTS

Background and Objective                                                   3

Results of Audit
      Finding: HUD Adequately Implemented and Monitored Its HUD-VASH
               Program, But Changes are Needed to Improve Lease-up Rates   5

Scope and Methodology                                                      11

Internal Controls                                                          13

Appendixes
A.    Auditee Comments and OIG’s Evaluation                                14
B.    Criteria                                                             21
C.    Voucher Data Schedule                                                22




                                          2
                          BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development’s (HUD) Veterans Affairs Supportive
Housing (VASH) program is a joint effort between HUD and the U.S. Department of Veterans
Affairs (VA) that combines housing choice vouchers from HUD with case management from the
VA to house homeless veterans and their families. For veterans to receive a HUD-VASH
voucher, they must first receive a referral from a VA medical center or a VA contractor. Once
the referral is received, veterans may go to their local public housing agency (PHA) to receive a
HUD-VASH voucher.

The 2008 Consolidated Appropriations Act (Public Law 110-161) provided $75 million in
funding for the HUD-VASH program to produce approximately 10,000 units for veteran
housing. Congress continued providing HUD $75 million each fiscal year through 2013, with
the exception of providing $50 million for fiscal year 2011 and a 0.2 percent rescission in 2013.
The table below shows the actual number of HUD-VASH vouchers awarded.

                                 HUD-VASH vouchers awarded 1
                            Year                    Vouchers awarded
                            2008                         10,150
                            2009                         10,290
                            2010                          9,519
                            2011                          7,926
                            2012                         10,450
                      2008 – 2012 total                  48,335
                            2013                          9,805
                  2008 – 2013 total vouchers             58,140

Previous Audits of the HUD-VASH Program
In 2012, both the U.S. Government Accountability Office (GAO) and the United States
Interagency Council on Homelessness issued separate reports on HUD-VASH program.

    •   The GAO report, dated June 2012, had no recommendations but examined (1) the
        determination of veteran eligibility, (2) what data were collected and reported, and (3)
        performance. It noted program challenges identified by the VA and PHAs, including the
        impact of VA medical center case manager workload on referral rates, veterans’
        difficulties in finding suitable housing, and a lack of resources to assist veterans with
        moving into housing.

    •   The Interagency Council’s report, dated December 2012, had several recommendations,
        but the two most relevant to our review were recommendations to provide additional
        vouchers and address the lack of resources for move-in expenses.


1
 The numbers in this table represent point-in-time data as of September 2013. These numbers are subject to change
as vouchers are transferred or reallocated.


                                                        3
HUD Reports to Congress
The Appropriations Committee directs HUD to report on the HUD-VASH utilization rates,
challenges encountered in the program, and increases in Veteran self-sufficiency.

   •   The 2012 HUD-VASH report discussed several program challenges including (1) general
       staffing problems for the VA, (2) coordination problems between case managers and
       PHAs, (3) cumbersome PHA processes, (4) challenges with the housing search process,
       (5) lack of money for utility and security deposits, and (6) increased focus on serving
       chronically homeless veterans.

   •   The 2013 HUD-VASH report discussed various program challenges including (1)
       staffing challenges for PHAs, (2) staffing challenges for the VA medical centers, (3)
       challenges with the housing search process, (4) lack of money for utility and security
       deposits, (5) coordination problems between case managers and PHAs, and (6)
       cumbersome PHA processes.


Our objective was to determine whether HUD’s implementation and monitoring of the HUD-
VASH program were adequate.




                                                4
                                    RESULTS OF AUDIT


Finding: HUD Adequately Implemented and Monitored Its HUD-
         VASH Program, but Changes are Needed to Improve Lease-up
         Rates
HUD adequately implemented and monitored the HUD-VASH program. However, the HUD-
VASH vouchers were not fully leased up. We attributed the under leased vouchers to the
program’s low rates for placing veterans in housing and significant turnover after lease-up,
which required a higher number of referrals from VA to lease up the program. The goal to focus
on chronically homeless veterans contributed to leasing difficulties, as it narrowed the pool of
referral participants to those that tend to be more difficult to house. In addition, a lack of
consistent resources for move-in fees, mental health and substance abuse issues impacts the
veterans’ ability to lease up and maintain their housing. As a result, HUD-VASH funding has
not been fully utilized and HUD therefore chose to hold back fiscal year 2013 HUD-VASH
funding for most of its PHAs.



    HUD’s Implementation and
    Monitoring Were Adequate


                HUD’s implementation and monitoring were adequate. Nationally, HUD has
                monitored the number of referrals from the VA to PHAs, the number of vouchers
                the PHAs issued, the number of vouchers leased, and the amount of vouchers
                issued but not housed. Since HUD’s systems did not track information on HUD-
                VASH referrals from VA, HUD has relied on information gathered and reported
                by VA for its monitoring and reporting on interagency goals. HUD’s monitoring
                made it aware of the referral challenges experienced by the PHAs. As of August
                2013, the VA reported 44,150 vouchers had been leased out of 58,140 vouchers
                awarded (76 percent) 2. Also, HUD’s Office of Public Housing had been in
                communication with HUD’s Office of Community Planning and Development to
                help secure sources of funds for the veterans’ move-in expenses.

                The local HUD field offices sampled did a good job in communicating with their
                local PHAs. For example, the Jacksonville field office monitored the Gainesville
                Housing Authority monthly. The Los Angeles field office monitored its smaller
                PHAs monthly but monitored its larger PHAs, such as the Housing Authority of
                the County of Los Angeles and the Housing Authority of the City of Los Angeles,


2
 These numbers include the 2013 vouchers awarded to the PHAs but held back by HUD until prior years’ vouchers
were fully leased.


                                                      5
                   weekly. The field offices monitored the VA referrals the PHAs received via
                   Excel spreadsheets, which were also used to measure the PHAs’ performance.

                   We also reviewed the Los Angeles City and County Authorities’ HUD-VASH
                   voucher processing, including reviewing the applications submitted by the
                   veterans, the PHAs’ document verification, and voucher issuance. Based on the
                   completed files reviewed, it took the County Authority an average of 45 days and
                   the City Authority an average of 40 days to issue the veteran a voucher. This time
                   included the processing time from when the veteran was referred from the VA
                   medical center to the PHA until the veteran received a voucher issuance
                   appointment or was issued a voucher. We found no discrepancies with the
                   application processing or issuance of HUD-VASH vouchers. Delays in
                   processing were generally due to incomplete submission of documents to the
                   PHA; for example, the Statement of Veterans and Family Responsibility form was
                   incomplete for one client and the Declaration of Eligibility form was not
                   completed for another.

    Low Placement Rates and
    Significant Turnover


                   The HUD field offices monitoring our sample PHAs stated that the lack of
                   referrals from the VA had been a challenge to the HUD-VASH program’s
                   success. Traditionally, HUD has expected PHAs to achieve at least a 95 percent 3
                   utilization rate for all housing choice vouchers, including HUD-VASH vouchers.
                   The VA’s data as of September 2013 appears to indicate our sampled PHAs
                   individually received a sufficient number of referrals to fully lease up their HUD-
                   VASH vouchers. However, as shown by our three sample PHAs, a significant
                   number of referred veterans did not complete the process and actually move into
                   housing.

                   •   The Housing Authority for the County of Los Angeles had 1,030 HUD-VASH
                       vouchers with 805 being reported by the VA as currently leased giving it a 78
                       percent lease rate (see appendix C). Although the County Authority, received
                       1,317 referrals from the VA, which was more referrals than it had vouchers,
                       only 88 percent of these veterans actually obtained vouchers and 67 percent
                       resulted with the veteran being housed. In addition, at least 13 percent of the
                       veterans housed since 2008 were no longer participating in the program.

                   •   The Housing Authority of the City of Los Angeles had 2,520 HUD-VASH
                       vouchers with 1,684 being reported by the VA as currently leased giving it a
                       67 percent lease rate. Although the City Authority received 3,240 referrals
                       from the VA, which was more referrals than it had vouchers, only 85 percent
                       of these veterans actually obtained vouchers and 67 percent resulted with the


3
    This goal was adjusted to 88 percent for HUD-VASH in 2013, as discussed below.


                                                         6
                     veteran being housed. In addition, at least 28 percent of the veterans housed
                     since 2008 were no longer participating in the program.

                 •   The Gainesville Housing Authority had 170 HUD-VASH vouchers with 114
                     being reported by the VA as currently leased giving it a total of 67 percent
                     lease rate. Gainesville received 217 referrals from the VA and 97 percent of
                     these veterans obtained a voucher; however, only 76 percent resulted with the
                     veteran being housed. In addition, at least 32 percent of the veterans housed
                     since 2008 were no longer participating in the program.

                 Nationwide, the VA reported 84,367 referrals to date, 77,561 vouchers issued, and
                 62,773 vouchers had been leased up as of September 2013 4. Overall, 26 percent
                 of all referrals ended with the veteran not finding housing (see appendix C).
                 Additionally, while the program had housed 62,773 veterans since 2008, currently
                 only 44,150 vouchers were leased. This suggests 30 percent of veterans that had
                 obtained housing in the program since 2008 had subsequently left the HUD-
                 VASH program. Veterans may have transferred to the regular housing choice
                 voucher program or otherwise left the HUD-VASH program. HUD reported
                 1,738 veterans had transferred to the regular program but the remaining 17,983
                 veterans’ whereabouts were unknown as HUD’s systems do not have the capacity
                 to track this information. The significant rate of referred veterans not finding
                 housing and the turnover of housed veterans required a higher volume of referrals
                 from VA in order for HUD and the PHAs to fully lease up the available vouchers.

    The Target Goal for
    Chronically Homeless Impacted
    Referrals

                 We spoke with the VA in both Gainesville and Los Angeles regarding the HUD-
                 VASH program. The Los Angeles VA and the Los Angeles HUD field office
                 acknowledged that the differing roles between HUD and the VA created a
                 challenge, since the VA was focused on case management and treatment while
                 HUD and the PHAs were more focused on housing and using the available
                 voucher funding. The VA described the HUD-VASH program as an intensive
                 case management program with a housing component to help stabilize the veteran
                 so that they can reintegrate back into the community. It stated that although the
                 HUD-VASH program was set up to obtain housing for the veterans, it was
                 important that the VA also provide needed medical care for veterans.

                 In 2012, the VA and HUD jointly implemented a goal to target 65 percent of all
                 HUD-VASH vouchers on chronically homeless veterans. 5 Before that time, the
                 HUD-VASH program was focused on homeless veterans with no specific chronic
4
  The leased up and housed number (62,773) was higher than total vouchers awarded (58,140) due to participant
turnover and voucher reissuance.
5
  The McKinney-Vento Homeless Assistance Act includes a definition for homeless and the chronically homeless
(see appendix B).


                                                       7
                   target. While this target goal was established to help ensure that those veterans
                   most in need received assistance, this change created a challenge for the PHAs.
                   HUD acknowledged in its February 2013 letter to PHA executive directors that
                   the identification, engagement and housing placement process with chronically
                   homeless veterans was more time-consuming. At this time, HUD also changed its
                   lease-up goal to 88 percent of all awarded vouchers. According to HUD’s report
                   to Congress, this target goal focusing on chronically homeless veterans further
                   impacted the referral fluctuations and ultimately the PHAs ability to fully lease its
                   HUD-VASH vouchers. The PHAs in our sample believed the emphasis on
                   serving chronically homeless was slowing VA’s veteran referrals.

                   While the VA and HUD have nearly the same national lease-up goal at 90 and 88
                   percent, respectively, individual field offices set higher alternate goals. Some
                   HUD local field offices set a goal of 100 percent lease-up. Additionally, the Los
                   Angeles VA office had a more aggressive 75 percent target goal of housing the
                   chronically homeless. Additionally, The Housing Authority of the City of Los
                   Angeles reported that the VA’s contracted provider, PATH (People Assisting the
                   Homeless), 6 could refer only the chronically homeless. The Housing Authority of
                   the County of Los Angeles believed that the Los Angeles VA had a referral goal
                   of 100 percent chronically homeless.

    Other Housing Challenges
    Impacted the Lease Rate


                   Other challenges also impacted the ability of homeless veterans to obtain and
                   maintain housing under the program. The PHAs and the VA reported issues with
                   the lack of suitable housing, the lack of resources for move-in expenses, and the
                   inability to maintain housing. A combination of these challenges has contributed
                   to a total of 687 expired vouchers between 2008 and 2013 among the three PHAs
                   in our sample.

                            Lack of Resources for Move-in Expenses
                            An important issue to consider for veterans before they find housing is the
                            move-in costs associated with the housing search. For example, in Los
                            Angeles, the VA noted that veterans were typically able to find housing
                            but it had been difficult getting landlords to hold units because they
                            wanted to receive payment right away. Since the HUD-VASH program
                            has no component to provide funding for this purpose, the veterans had to
                            obtain funding from other sources. The VA had to rely on community
                            agencies to help provide move-in costs. Although HUD’s Office of Public
                            and Indian Housing had been able to coordinate with its Office of
                            Community Planning and Development to use funding from the
                            Homelessness Prevention and Rapid Re-Housing Program, these funds
                            were depleted in 2012 leaving no consistent source of funding.
6
    The VA contracted with PATH to refer veterans to both the City and County Authorities.


                                                          8
                    Lack of Suitable Housing
                    There was a lack of suitable housing stock for HUD-VASH program
                    veterans in some areas. In its report to Congress, HUD stated “HUD-
                    VASH sites with a low leasing success rate, or the rate of lease-ups per
                    voucher issued, indicate that Veterans are having trouble finding suitable
                    units.” For example, the Jacksonville HUD office and Gainesville
                    Housing Authority noted that the small community lacked a sufficient
                    number of units to offer the veterans. They stated Gainesville had a high
                    student population occupying most of the available housing, making
                    housing homeless veterans a challenge in the area.

                    Inability To Maintain Housing
                    The Gainesville VA stated that one of the main problems the VA faced
                    with HUD-VASH program was that although veterans had to attend case
                    management sessions, there was no mandate to treat their medical issues,
                    such as substance abuse or chronic disorders. The program was set up to
                    provide housing for veterans. As a result, assisting and maintaining
                    housing for chronic veterans had been a challenge. Both VA offices
                    identified a retention problem because many of the veterans that fit the
                    HUD-VASH profile were using substances, dealing with mental health
                    issues, or otherwise having trouble maintaining a steady income. As a
                    result, the emphasis on chronic veterans may be contributing to the
                    retention issue.

Conclusion

             HUD adequately implemented and monitored the HUD-VASH program and
             demonstrated that it had taken proactive steps to help make this program a
             success. However, HUD-VASH vouchers were not fully leased up. We
             attributed the lease-up rate problem to low completion rates for vouchers issued
             but not leased, which then required a higher rate of referrals from the VA to lease
             up the program. The emphasis on chronically homeless veterans also contributed
             to the completion and retention rate problems because many of the veterans that
             fit the chronic profile are dealing with substance abuse or mental health issues.
             Additional aspects contributed to why a veteran who was issued a voucher did not
             follow through with housing, including the lack of resources for move-in
             expenses and the lack of suitable housing. As a result, HUD-VASH funding had
             been underused and HUD had to hold back fiscal year 2013 funding until PHAs
             leased up prior vouchers to prevent further accumulation of unused HUD-VASH
             funds in PHA accounts.




                                              9
Recommendations

          We recommend that the Deputy Assistant Secretary for Public Housing and
          Voucher Programs

          1A.     Continue working with the VA to increase referrals to the HUD-VASH
                  program.

          1B.     Collaborate with the VA to reevaluate the target percentage of chronically
                  homeless veterans and determine whether an adjustment is needed to serve
                  a higher number of homeless veterans; and work with the VA to ensure it
                  adheres to the agreed upon target.

          1C.     Continue efforts to find consistent additional resources for move-in costs.




                                           10
                               SCOPE AND METHODOLOGY

We conducted our audit work at the HUD Office of Inspector General (OIG) in Los Angeles,
CA, with site visits to the County of Los Angeles and City of Los Angeles, between October
2013 and March 2014 7. Our audit period covered May 2008 through September 2013, but we
expanded that period as necessary to accomplish our objective.

To accomplish our objective, we

         •    Reviewed applicable regulations, policies, and procedures;

         •    Reviewed local PHA policies and procedures specific to HUD-VASH program;

         •    Reviewed local PHA HUD-VASH funding, units awarded, referrals, and lease-up
              rates;

         •    Reviewed local PHA client files; 8

         •    Interviewed HUD headquarters staff responsible for the HUD-VASH program;

         •    Interviewed HUD Office of Public and Indian Housing field office staff responsible
              for monitoring local PHAs; and

         •    Interviewed VA staff responsible for referring veterans to the sample PHAs.

We selected a nonstatistical sample of three PHAs: (1) the Housing Authority of the County of
Los Angeles, (2) the Housing Authority of the City of Los Angeles, and (3) the Gainesville
Housing Authority, based on the following four considerations: (1) selecting PHAs from
multiple regions; (2) selecting two PHAs that were in the top 11 recipients, based on vouchers
awarded; and (3) selecting a PHA that was a low performer, which meant they had a lease-up
rate of less than 70 percent.

We used data received from HUD’s Public Housing and Voucher Program department to select
our sample. Data such as the amount of HUD-VASH vouchers awarded to each of the sample
PHAs and lease-up rates were confirmed with documentation; thus, we determined that the data
were reliable for its intended use in addressing the audit objective.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


7
  We did not visit GHA as we were able to obtain most of the data needed via phone calls and e-mails.
8
  We did not review client files for the Gainesville Housing Authority due to difficulties in obtaining the files in a
timely and secure manner and the lack of issues with the other two PHAs.


                                                           11
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Monitoring of program operations.

               •   Compliance with applicable laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objectives in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance on the effectiveness of the internal
               control structure as a whole. Accordingly, we do not express an opinion on the
               effectiveness of HUD’s internal controls over the HUD-VASH program.




                                                 13
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




                            14
Comment 1




            15
Comment 2



Comment 3



Comment 4




Comment 5




Comment 6




            16
Comment 7



Comment 8



Comment 9




Comment 1




            17
18
                         OIG Evaluation of Auditee Comments

Comment 1   The recommendation is not outside of the audit’s scope, as policy decisions
            impact HUD’s continued implementation and monitoring of the program. The
            recommendation does not require HUD to change or eliminate the chronic target,
            only to reevaluate whether adjustments are warranted to potentially serve a higher
            number of homeless veterans. HUD and the VA should reconsider whether a
            portion of the unused funding can go toward non-chronic homeless veterans in the
            short term. As these units turnover, they can revert back for use by chronically
            homeless if referrals are increased or there is a need identified. Federal Register
            Docket No. 523-N-01 HUD-VA Supportive Housing Program, Section II.a states
            “The December 17, 2007, Explanatory Statement for the 2008 Appropriation Act
            provides, ‘‘The Appropriations Committees expect that these vouchers will be
            made available to all homeless veterans, including recently returning veterans’
            (153 Cong. Rec. H16514 (daily ed., Dec. 17, 2007)). HUD, through its
            undersigned Secretary, finds the following waivers necessary to effectively
            administer and deliver the program to all veterans in accordance with
            Congressional intent. Section 8(o)(19) of the United States Housing Act of 1937
            (USHA of 1937), which requires homeless veterans to have chronic mental
            illnesses or chronic substance use disorders with required treatment of these
            disorders as a condition of receipt of HUD–VASH assistance, is waived.” The
            HUD-VASH program was intended for all homeless veterans including non-
            chronic.

Comment 2   We acknowledge the VA has other programs to assist homeless veterans. Our
            focus was only on HUD’s administration of the HUD-VASH program and not all
            veteran homeless programs.

Comment 3   We adjusted the sentence to read “Additionally, while the program had housed
            62,773 veterans since 2008, currently only 44,150 vouchers were leased.

Comment 4   HUD did not provide any documentation on the VA’s tracking or any ongoing
            study of the program exists. However, we agree that such information could be
            beneficial for the program.

Comment 5   Although it is our understanding that these programs may allow funding to help
            with move in costs, during our review, no information was provided by HUD, the
            PHAs, or the VA offices regarding Emergency Solutions Grants or the Supportive
            Services for Veteran Families Program funding resolving this issue. We also note
            that the ESG program is not exclusive to assisting homeless veterans. Since no
            additional data or analysis has been provided by HUD we cannot comment further
            on their benefit to the HUD-VASH program. However, we note that in its
            response to our recommendation 1C, HUD agreed to continue to identify sources
            of funding for move-in expenses. If HUD believes there are suffficient funds
            available through these other programs, it should continue its efforts to ensure
            they provide a consistent source of move-in expenses.



                                            19
Comment 6   As noted in the report, these were statements made by one of the VA offices,
            expressing challenges to the program.

Comment 7   We have removed the sentence “Income stability is a factor because if the veteran
            is unable to pay its portion of the rent this could lead to an eviction.”

Comment 8   We adjusted the Scope and Methodology section of the report to clarify that 2 of
            the PHAs selected were in the top 11 recipients. We also removed reference to
            selecting a PHA that was a high performer. Although the latter was part of our
            original plan, since we found no significant issues with HUD’s implementation
            and administration of the HUD-VASH program we did not proceed with
            additional sample PHA reviews.

Comment 9   We agree and have removed the word “generally” from the final audit report.




                                            20
Appendix B

                                         CRITERIA

The McKinney-Vento Homeless Assistance Act as Amended by S. 896, The Homeless
Emergency Assistance and Rapid Transition to Housing Act of 2009

SEC. 103. [42 USC 11302]. GENERAL DEFINITION OF HOMELESS INDIVIDUAL.
(a) IN GENERAL.—For purposes of this Act, the term “homeless”, “homeless individual”, and
“homeless person” means—
(1) an individual or family who lacks a fixed, regular, and adequate nighttime residence;
(2) an individual or family with a primary nighttime residence that is a public or private place not
designed for or ordinarily used as a regular sleeping accommodation for human beings, including
a car, park, abandoned building, bus or train station, airport, or camping ground; (3) an
individual or family living in a supervised publicly or privately operated shelter designated to
provide temporary living arrangements (including hotels and motels paid for by Federal, State, or
local government programs for low-income individuals or by charitable organizations,
congregate shelters, and transitional housing);
(4) an individual who resided in a shelter or place not meant for human habitation and who is
exiting an institution where he or she temporarily resided;

(2) CHRONICALLY HOMELESS.—
(A) IN GENERAL.—The term ‘chronically homeless’ means, with respect to an
individual or family, that the individual or family—
(i) is homeless and lives or resides in a place not meant for human habitation, a safe haven, or in
an emergency shelter;
(ii) has been homeless and living or residing in a place not meant for human habitation, a safe
haven, or in an emergency shelter continuously for at least 1 year or on at least 4 separate
occasions in the last 3 years; and
(iii) has an adult head of household (or a minor head of household if no adult is present in the
household) with a diagnosable substance use disorder, serious mental illness, developmental
disability (as defined in section 102 of the Developmental Disabilities Assistance and Bill of
Rights Act of 2000 (42 U.S.C. 15002)), post traumatic stress disorder, cognitive impairments
resulting from a brain injury, or chronic physical illness or disability, including the co-
occurrence of 2 or more of those conditions.




                                                21
Appendix C

                               VOUCHER DATA SCHEDULE


    Voucher data as of          Nationwide          Housing             Housing                Gainesville
    September 2013                                Authority of       Authority of the           Housing
                                                 the County of         City of Los             Authority
                                                  Los Angeles           Angeles
    Vouchers awarded                  58,140              1,030                 2,520                      170
    Vouchers leased                   44,150                805                 1,684                      114
    Lease up rate                       76%                78%                   67%                       67%
    Referrals                                             1,317                 3,240                      217
                                      84,367
    Veterans issued a                 77,561                1,162                 2,764                    211
    voucher
    Referrals issued voucher            92%                  88%                    85%                    97%
    rate
    Veterans housed since             62,773                  881                 2,182                    164
    2008 9
    Referrals housed rate               74%                  67%                    67%                    76%
    Issued vouchers housed              81%                  76%                    79%                    78%
    rate
    Veterans no longer in             19,721                  113                   602                         52
    program
    Housed no longer in                 31%                  13%                    28%                    32%
    program rate




9
  The leased up and housed number (62,773) was higher than total vouchers awarded (58,140) due to participant
turnover and voucher reissuance.



                                                       22
